OFFICE OF THE ATTORNEY GENERAL
Carolyn M. Snurkowski

 

Assistant Deputy Attorney General

PL-01 The Capitol

Tallahassee, FL 32399-1050

ASHLEY MOODY Phone (850) 414-3300
ATTORNEY GENERAL Fax (850) 487-0168
STATE OF FLORIDA hitp:/www.myfloridalegal.com

September 14, 2021

The Honorable Scott S. Harris,
Clerk of Court

Supreme Court of the United States
One First Street N.E.

Washington D.C. 20543-0001

VIA ELECTRONIC DELIVERY

Re: Robert Craft v. Florida,
Case No. 21-5280 — Capital Case

Dear Mr. Harris:

Respondent, the State of Florida, requests a thirty-day extension of time from
today’s date to file its Brief in Opposition to the petition. Sup. Ct. R. 30.4. Opposing
counsel has acknowledged she failed to serve the State with the petition for
certiorari and she failed to notify the State of the docketing statement. The State has
not had an opportunity to fully review the brief for filing, and an additional 30 days is
needed to provide ample time for this review. The State contacted opposing counsel
via e-mail and telephone and she no objection to this extension because she failed
to serve the State. Therefore, Respondent requests until Thursday, October 14,
2021, to file the mae in opposition.

   

‘olyn M. Snurkowski
Associate Deputy Attorney General
Florida Bar No. 158541

Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL

TALLAHASSEE, FL 32399-1050
(850)414-3300
carolyn.snurkowski@myfloridalegal.com

Copies e-mailed to Barbara Busharis at Barbara.busharis@flpd2.com this September 14th, 2021.
